                       on




          FINANCIAL MANAGEMENT OF THE RAH-66
             COMANCHE HELICOPTER PROGRAM



Report Number 98-185                           August 6, 1998




             Office of the Inspector General
                 Department of Defense
 Additional Copies

 To obtain additional copies of this audit report, contact the Secondary Reports
 Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
 (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
 General, DOD, home page at: WWW.DODIG.OSD.MIL.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Planning and
 Coordination Branch of the Analysis, Planning, and Technical Support Directorate at
 (703) 604-8908 (DSN 664-8908) or FAX (703) 6048932. Ideas and requests
 can also be mailed to:

                     OAlG-AUD (ATTN: APTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, Virginia 22202-2884

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 4249098; by sending an electronic message to Hotline@DODIG.OSD.MXL; or
 by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
 The identity of each writer and caller is fully protected.




Acronyms
                                                                                       i
                                                                                       !
ACWP                 Actual Cost of Work Performed
CPR                  Cost Performance Report
BCWP                 Budgeted Cost of Work Performed
BCWS                 Budgeted Cost of Work Scheduled
EVMS                 Earned Value Management System
WBS                  Work Breakdown Structure
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DFWE
                                 ARLINGTON. VlRGtNlA 22202




                                                                         August 6, 1998

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Audit Report on Financial Management of the RAH-66 Comanche
         Helicopter Program (Report No. 98- 185)


        We are providing this report for your information and use. This is the second
in a series of reports on the acquisition of the RAH-66 Comanche helicopter.

        The Program Manager for the Comanche Program implemented action plans
that adequately addressed the issues identified in this report. We commend the
Program Manager for his prompt actions. Management comments conform to the
requirements of DOD Directive 7650.3. We require no further response to the
recommendations.

        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Charles M. Santoni at (703) 604-9051 (DSN 664-9051) or
Mr. William D. Van Hoose at (703) 6049034 (DSN 6649034). See Appendix C for
the report distribution. The audit team members are listed inside the back cover.




                                         David K. Steensma
                                  Deputy Assistant Inspector General
                                            for Auditing
                        Office of the Inspector General, DOD

Report No. 98-185                                                         August 6,1998
   (Project No. 7AL-OO12.01)

                      Financial Management of the RAH-66
                          Comanche Helicopter Program
                                Executive Summary

Introduction. This report is the second of a series of reports on the audit of the
acquisition of the RAH-66 Comanche. This report addresses issues pertaining to the
earned value management system, the award fee, and life-cycle costs. The Army spent
$3.6 billion in research, development, test and evaluation funds through FY 1997 and
is planning to spend and additional $4.3 billion through FY 2009. The Army plans to
begin fielding the helicopter in 2006 for improved armed reconnaissance capability.

Audit Objective. The audit objective was to evaluate the overall management of the
Comanche Program. The specific objective of this portion of the audit was to evaluate
the financial aspects of program management. The previous report, Inspector General,
DOD, Report No. 98-125, covered the protection of the Comanche helicopter against
radio frequency weapons, and a subsequent report will cover acquisition issues. We
also reviewed the adequacy of the management control program as it applied to the
specific stated audit objective.

Audit Results. The Cost Performance Reports did not present an informative picture
of the Comanche Program. Also, the process for determining the award fee was not
fully documented. In addition, the life-cycle cost was underestimated.

To correct the problems, Comanche Program Office officials agreed to require the
contractor for the Comanche to revise its procedures for preparing the Cost
Performance Reports, and request the Defense Contract Management Command to
perform more comprehensive reviews of the contractor’s earned value management
system. Those officials also agreed to fully document the process of determining the
award fees. In addition, the officials agreed to include the costs associated with the use
of hazardous materials and disposal costs related to the Comanche helicopter in its life-
cycle-cost estimate prior to the next milestone review. When implemented, the agreed-
upon action plans will correct the problems identified. See Part I for a discussion of
the audit results. For a discussion of the management control program, see
Appendix A.

Summary of Recommendations. We recommend that the Program Manager for the
Comanche Program develop time-phased milestones to facilitate the completion of the
agreed-upon plans of action.

Management Comments. The Program Manager for the Comanche Program stated
that the plans of action were being implemented. See Part I for a summary of
management comments and Part III for the complete text of the comments.

Audit Response. We considered the management comments to be fully responsive and
commend the Program Manager for his positive actions. Therefore, we require no
further response to the recommendations.
Table of Contents

Executive Summary                                   i

Part I - Audit Results

      Audit Background                              2
      Audit Objective                               2
      Finding A. Earned Value Management System     3
      Finding B. Contract Performance Award Fee    10
      Finding C. Life-Cycle Cost                   14

Part II - Additional Information

      Appendix A. Audit Process
        Scope                                      20
        Methodology                                20
        Management Control Program Review          21
        Summary of Prior Coverage                  22
      Appendix B. Earned Value Management System   23
      Appendix C. Report Distribution              25

Part III - Management Comments
      Department of the Army Comments              28
Part I - Audit Results
Audit Background

     This report on the financial management of the Comanche Program is the
     second of a series of reports on the audit of the acquisition of the &U-I-66
     Comanche (Project No. 7AL-0012). In April 1991, the acquisition program for
     the Comanche helicopter entered the program deftition and risk reduction
     phase. The program is scheduled to enter the engineering and manufacturing
     development phase in FY 2002. The Program Manager for the Comanche,
     under the Program Executive Officer for Aviation, manages the Comanche
     acquisition program. The contractor for the Comanche helicopter is the Boeing
     Sikorsky RAH-66 Comanche Team (Contractor). The Army spent $3.6 billion
     in research, development, test and evaluation funds through FY 1997 and is
     planning to spend an additional $4.3 billion through FY 2009.

     The Comanche is the first Army helicopter specifically developed to provide the
     Army with an improved armed reconnaissance capability. It will expand the
     capability of the Army to conduct reconnaissance operations in all battlefield
     environments. The Comanche will replace three helicopters (AH-l, OH-58,
     and OH-6) that currently perform the armed reconnaissance mission. The Army
     plans to begin fielding the Comanche during 2006.


Audit Objective

     The overall audit objective was to evaluate the management of the Comanche
     Program. The specific objective of this portion of the audit was to evaluate the
     financial management of the Comanche Program. A previous report covered
     the protection of the Comanche helicopter against radio frequency weapons, and
     a later report will cover technical issues. We also reviewed the adequacy of the
     management control program as it applied to the specific objectives of the audit.
     See Appendix A for a discussion of the audit scope and methodology, the
     organizations visited and contacted during the audit, and our review of the
     management control program.




                                         2
              Finding A. Earned Value Management
              System
              The Cost Performance Reports (CPRs) for the Comanche Program are
              not an informative indicator of cost and schedule performance. This
              condition resulted from adjustments made to the Earned Value
              Management System (EVMS) at the various times the Comanche
              Program was restructured, from combining the contract performance
              data for the period prior to the January 1997 restructure with the contract
              performance data for the period after the January 1997 restructure, and
              from the Contractor’s questionable practice in operating the EVMS.
              Therefore, the CPRs deprive DOD managers of specific information for
              making decisions pertaining to the Comanche Program.


Purpose of an Earned Value Management System
       Earned value is a management technique that relates resource planning to
       schedules and performance. The Contractor plans, budgets, and schedules work
       in time-phased increments constituting a performance measurement baseline. In
       the EVMS, the sum of all budgets for the work scheduled is the Budgeted Cost
       of Work Scheduled (BCWS). The Contractor earns the work on the same basis
       as planned, in dollars or other quantifiable units such as labor hours. In the
       EVMS, the sum of budgets for completed work is called the Budgeted Cost of
       Work Performed (BCWP), also known as earned value. Planned value, BCWS,
       compared with earned value, BCWP, thus measures the work planned versus the
       equivalent work accomplished. Any difference is called a schedule or
       accomplishment variance. Earned value compared with the actual cost incurred
       for the work performed, called Actual Cost of Work Performed (ACWP),
       provides an objective measure of cost performance. Any difference is called a
       cost variance. Therefore, an EVMS properly implemented and effectively
       operated would preclude management from suddenly realizing that it spent
       90 percent of the budgeted funds but that the project is only 60 percent
       complete. See Appendix B for a detailed description of an EVMS .


cost   Performance Reports
       The CPRs for the Comanche Program have not presented an informative picture
       of its cost and schedule performance. For example, the CPR as of
       December 31, 1996, shows that the Comanche Program was 99 percent
       complete and generally on schedule and within cost. However, the actual status
       of the Comanche Program was not what one would expect if the program was
       99 percent complete.

       The Army awarded the contract for the program definition and risk reduction
       phase of the Comanche Program in April 1991. The contract required the
       Contractor to accomplish all tasks associated with this phase and deliver
       six prototype helicopters to the Army at a target cost of $1.8 billion by
                                           3
Finding A. Earned Value Management System


     August 8, 1995. In January 1993, due to budget limitations, the Comanche
     Program Office extended the period of performance for the contract to
     September 1997, reduced the quantity of prototypes from six to three, and
     increased the target cost to $2 billion. On March 23, 1994, the Comanche
     Program Office reduced the quantity of prototypes from three to two. On
     August 23, 1996, the Comanche Program Office further modified the contract
     requiring the Contractor continue design and fabrication of the two prototypes.
     By the January 1997 restructure, the Comanche Program Office had spent
     99 percent of the contract funds, but the Contractor had not completed
     99 percent of the work for the program definition and risk reduction phase.
     When asked, neither the officials of the Comanche Program Office nor the
     Contractor officials could determine which tasks were 99 percent complete.
     Modifying contract requirements to coincide with the Contractor’s
     accomplishments up to the January 1997 restructure resulted in CPRs that
     indicated that the work was about 99 percent complete; however, this is not a
     useful statistic.

     The January 1997 restructure increased the budget-at-completion for the contract
     from $1849.8 million to $3,400.5 million, increased the deliverable aircraft
     from two to eight, and extended the delivery date to 2002. As a result, after the
     January 1997 restructure, the data in the EVMS showed that the Comanche
     Program was 53 percent complete. At that point, the Comanche Program
     Off& had spent 53 percent of the total contract funds, but it is questionable
     whether the Contractor had completed 53 percent of the contract tasks. The
     Comanche Program Office and the Contractor did not have documentation
     showing that the contractor had completed 53 percent of the tasks.


Measuring Cost and Schedule Performance
     The CPRs did not show an informative picture of the status of the Comanche
     Program because of adjustments made to the EVMS as a result of the
     restructures, contract performance data for the period prior to the January 1997
     restructure being combined with the contract performance data for the period
     after the January 1997 restructure, and the Contractor’s questionable practices in
     operating its EVMS.

             Adjustments to the Earned Value Management System. The
     Contractor, with the consent of the Comanche Program Office, made
     adjustments to its EVMS because of changes to the performance requirements of
     the contract, which decreased the usefulness of the CPRs. During our review of
     work packages at the Contractor’s Boeing facility for the contract period prior
     to the January 1997 restructure, we noted many instances in which the
     Contractor stopped work on discrete work packages before completing the
     required task. The Contractor transferred unused budgeted hours to other work
     packages or planning packages, and revised the BCWP to equal the BCWS.
     Therefore, the Contractor eliminated any schedule variance that had
     accumulated for closed work packages and did not reflect them in the CPRs.



                                             4
                               Finding A. Earned Value Management System


        Combining Contract Performance Data. The Contractor, with the
consent of the Comanche Program Offke, combined the contract performance
data for the period before the January 1997 restructure with the performance
data for the period after the January 1997 restructure for reporting in the CPRs.
Combining the data decreased the usefulness of the CPRs. The Comanche
Program Office instructed the Contractor to adjust BCWS and BCWP to make
them equal the ACWP of $1,827.8 million. Those adjustments, made at both
the Contractor’s Boeing and Sikorsky facilities, eliminated the cost and schedule
variances that existed at that time. The Contractor made the adjustments so that
the evaluation of cost and schedule performance could have a new start with no
variances.

After the January 1997 restructure, the Contractor calculated the cost and
schedule variance percentages and the performance indices using the totals of
the BCWS, BCWP, and ACWP since the beginning of the contract in
April 1991. That method diluted the variance percentages and performance
indices because the Contractor combined $1,827.8 million without any variance
with the performance data following the January 1997 restructure that do
contain variances. The January 1997 restructure increased the budget-at-
completion for the contract from $1,849.8 million to $3,400.5 million. So, as
of September 1997, the percentage schedule variance was a negative 0.4 percent
when calculated using the BCWS and the BCWP for the total contract period.
However, we calculated a negative 6.4 percent variance in the BCWS and
BCWP for the period of the contract after the January 1997 restructure. The
schedule variance occurred after January 1997 and should be evaluated against
the BCWS and BCWP for that same period, not the total period of the contract.
Similarly, the percentage of cost variance was a negative 0.1 percent based on
the total contract period. However, it was a negative 1.6 percent based on the
period of the contract in which the cost variance occurred.

The Contractor, in its November 1997 CPR, states that the Comanche Program
continues to be well above the standards of most programs in its cost and
schedule performance. The Contractor further states that, at 78 months into the
contract, the cumulative unfavorable schedule variance is a negative
0.4 percent, and the cumulative unfavorable cost variance is a negative
0.1 percent. A person reading the CPR, who was unfamiliar with the
Comanche Program, would never know that the cumulative variances were
eliminated at the beginning of the January 1997 restructure, and that the
percentages of schedule and cost variance after the beginning of the
January 1997 restructure were a negative 4.7 and 1.6 percent, respectively.
Also, combining contract performance data affects the calculation of the
estimate-at-completion, which is the total cost of the project at completion.
Calculation of the estimate-at-completion requires using the schedule variance
percent, the cost variance percent, the schedule performance index, and the cost
performance index. For example, using the contract performance data as of
November 30, 1997, to calculate an estimate-at-completion results in a projected
cost overrun of $10.5 million based on the data for the total contract, but it
results in a projected cost overrun of $97.8 million when it is based on the short
1l-month period since the January 1997 restructure.



                                        5
Finding A. Earned Value Management System


     The Comanche Program Office recognized the effect that combining the
     performance data had on the performance statistics. Therefore, during the
     October 28, 1997, program review meeting, Comanche Program Office officials
     briefed both sets of data. However, the Contractor’s CPRs should also show
     the cost and schedule variance percentages based on the performance data for
     the contract after the January 1997 restructure.

             Contractor Operation of the Earned Value Management System.
     The Contractor’s CPBs did not reflect the status of the Comanche Program
     accurately because the Contractor established an excessive number of level-of-
     effort work packages. Also, the Contractor established some discrete work
     packages that were actually level-of-effort work packages, and the tasks related
     to the planning packages were too broad.

               Level-of-Effort Work Packages. The Contractor established an
     excessive quantity of level-of-effort work packages, which reduced the
     reliability of the results obtained from the EVMS. The official responsible for
     the EVMS stated that the Contractor’s policy was that level-of-effort work
     packages should not exceed 20 percent of the total work packages. Therefore,
     we used the 20-percent criterion for our evaluation.

     At the Contractor’s Boeing facility, we reviewed all 54 work packages
     containing labor hours within the Work Breakdown Structure (WBS) 1.1. E,
      1.1.5 and 1.1.7 covering 27,608 hours of work from January 1997 through
     September 1997. We judgmentally excluded material and subcontractor work
     packages from our review. Our review showed that Boeing classified 35 of the
     54 work packages as level-of-effort work, approximately 65 percent. The 35
     level-of-effort work packages accounted for 18,523 of the 27,608 hours, which
     amounted to 67 percent. In addition to our review, the Cost Performance
     Monitor of the Defense Contract Management Command office at Boeing
     Helicopters reported on June 6, 1997, that 62 percent of the hours planned for
     the Comanche Program from June 1997 through September 1997 period were in
     level-of-effort work packages. The use of level-of-effort work packages results
     in the calculation of earned value or BCWP based on the performance of
     continuing functions with no direct relationship to specific accomplishments.
     Therefore, BCWS is always equal to BCWP and the program is on schedule. A
     large quantity of level-of-effort work packages dilutes the data from the discrete
     work packages and diminishes the behind-schedule and over-cost conditions in
     the CPRs.

     At the Contractor’s Sikorsky facility, we reviewed all 35 work packages with
     labor hours within WBS 1.1.1-l. 1. covering lo,45 1 hours of work from
     January through October 1997. Sikorsky classified 1 of the 35 work packages
     as level-of-effort that accounted for 1,070 of the 10,451 hours, which amounted
     to 10 percent and was well within the 20percent criterion of the total work
     packages.

             Discrete Work Packages. We noted that work packages established as
     discrete work packages were, in some cases, being managed as level-of-effort
     work packages.


                                             6
                                   Finding A. Earned Value Management System


    At the Contractor’s Boeing facility, we reviewed all 54 work packages that
    included labor hours, accounting for 27,608 hours. Boeing classified nine of
    those work packages, amounting to 8,058 hours, as discrete work packages.
    We reviewed the work packages and concluded that eight work packages that
    accounted for 7,956 of the 8,058 hours were not for discrete tasks having a
    valid milestone. Based on our review of milestone descriptions and interviews
    with responsible officials, the event for obtaining credit for work performed was
    the occurrence of September 30, 1997, not the completion of specific tasks. In
    addition, a member of the Comanche Program Office staff noted the same
    condition in other elements of the WBS at the Contractor’s Boeing facility. The
    staff member reported the condition to the management of the Comanche
    Program Office in a memorandum dated September 4, 1996+ which stated that t
    “This review was initiated after the discovery of discrete milestones in the
    Contractor Flight Test Program set at such a general level to yield little accurate
    earned value insight into the performance measurement baseline. n

    At the Contractor’s Sikorsky facility, we reviewed all 35 work packages that
    included labor hours, accounting for lo,45 1 hours. Sikorsky classified 34 work
    packages for 9,381 hours as discrete work packages. We reviewed the 34 work
    packages and concluded that 3 work packages that accounted for 1,429 hours
    were not discrete tasks having a valid milestone. We based the conclusion on
    review of the descriptions of the work package tasks. For the three work
    packages, the description indicated an ongoing function rather than completion
    of a specific task.

            Planning Packages. The planning packages for each WBS did not
    include adequate details of the tasks to be accomplished; they only consisted of
    the total budgeted funds allotted to that WBS with the funds being apportioned,
    by month, over the contract period. Planning packages should contain a brief
    description of the tasks to be accomplished. This helps to prevent the
    Contractor from using funds from a planning package to establish a work
    package beyond the scope of the planning package, and depleting the available
    funds in the planning package before the Contractor completes all the tasks.


Surveillance of Earned Value Management System
    The Defense Contract Management Command office at Sikorsky Aircraft and
    the Defense Contract Management Command office at Boeing Helicopters are
    responsible for the surveillance of the Contractor’s EVMS and for preparation
    of the monthly surveillance reports. Although the surveillance report at Boeing
    Helicopters, dated June 6, 1997, commented on the excessive quantity of level-
    of-effort work packages, its other surveillance reports did not comment on the
    work-package or planning-package levels. Surveillance should include reviews
    to ensure that work packages that are classified as discrete are completed before
    the Contractor can take the earned value for the work package.




                                            7
Finding A. Earned Value Management System


      Comanche Program Office      staff members survey the Contractor’s EVMS. A
      September 1996 trip report   of a staff member’s visit to Boeing Helicopters to
      review its EVMS identified    about seven problems that would affect its
      reliability. The Comanche    Program Office’s comprehensive review was an
      outstanding effort.




     The Contractor’s CPRs do not show an informative picture of the status of the
     Comanche Program. Before January 1997, the condition resulted from the
     many instances in which the Contractor stopped work on discrete work packages
     before completing the related task. The Contractor transferred the unused
     budgeted hours to other work packages or planning packages, and made the
     BCWP equal the BCWS. Those actions eliminated any cost or schedule
     variance that accumulated for the work packages closed. After January 1997,
     the Contractor combined performance data for the period before the
     January 1997 restructure with the performance data for the period after the
     January 1997 restructure, which diluted the percent variances and performance
     indices.

     Also, review of the operation of the EVMS since the January 1997 restructure
     disclosed problems that affect the creditability of the EVMS data.
     The problems include an excessive quantity of level-of-effort work packages,
     work packages that are improperly classified as discrete work packages, and an
     inadequate description of tasks related to planning packages.


Management Action
     Comanche Program Office representatives acknowledged that combining the
     contract performance data diluted the performance indicators and made the
     CPRs less informative, but commented that they wished to see both sets of data.
     The representatives also acknowledged that excessive level-of-effort work
     packages resulted in less informative CPRs, but commented that there is no
     DOD criterion for the quantity of level-of-effort work packages. In addition,
     they agreed that planning packages should contain a brief description of the
     scope of the work. The Comanche Program Office representatives agreed to
     implement the following plan of action:

              1. Require the Boeing Sikorsky IUH-66 Comanche Team to report in
     its CPRs the percentages of schedule and cost variances based on the work
     scheduled, work performed, and actual cost incurred since the January 1997
     restructure of the contract for the program definition and risk reduction phase of
     the Comanche Program.




                                               8
                                    Finding A. Earned Value Management System


            2. Request the Defense Contract Management Command Sikorsky
    Aircraft and the Defense Contract Management Command Boeing Helicopters to
    perform more comprehensive reviews of the EVMS used for managing the
    Comanche Program to ensure the maintenance of system discipline.
    Specifically, those reviews must ensure that:

                   a. Work packages classified as discrete have valid milestones,
    and that earned value is claimed only upon the satisfactory completion of the
    milestone.

                   b. Level-of-effort work packages do not exceed approximately
    20 percent of the total work packages.

                     c. Planning packages contain a brief description of the work-
    related tasks.

    These actions will correct the problems identified. However, the Comanche
    Program Office did not develop time-phased milestones to implement the plan
    of action.


Recommendation and Management Comments

    A. We recommend that the Program Manager for the Comanche Program
    develop time-phased milestones to implement the plan of action to improve
    the usefulness of the Cost Performance Reports for the Comanche
    PI-Ogl-iUTl.


    Management Comments. The Program Manager for the Comanche Program
    concurred and stated that the implementation of the recommended changes has
    begun. The full text of the Program Manager’s comments is in Part III.




                                             9
           Finding B. Contract Performance
           Award-Fee
           The process of evaluating the Contractor’s performance and determining
           the amount of award fee was not well documented because Comanche
           Program Office personnel did not place adequate emphasis on the need
           to fully document award fee decisions. Consequently, through
           December 1997, the Comanche Program Office awarded the Contractor
           $84 million in award fees for which documentation that contractual
           evaluation criteria were adhered to was incomplete.


Award Fee Process
    The contract award fee is a procurement technique used to award the Contractor
    for good performance. The contract requires that the Comanche Program
    Office establish criteria for evaluating the Contractor’s performance.
    Therefore, the Comanche Program Office established evaluation criteria in three
    areas and assigned weights to those areas in accordance with their significance.
    The three evaluation areas and their weights were: (1) technology weighted at
    40 percent, (2) supportability weighted at 25 percent, and (3) cost and program
    management weighted at 35 percent. The Comanche Program Office
    established specific tasks under each of the three areas. Each of the tasks was
    of equal weight.

    The award fee board performed an annual evaluation for award fee Period Six
    and then changed the award process for award fee Period Seven. For award fee
    Period Seven, the award fee board reviewed the Contractor’s progress toward
    meeting the evaluation criteria quarterly. Based on the quarterly reviews, the
    award fee board determined the quarterly award fee payments.

    The contract defines the level of performance required to obtain various
    nercentages of the available award fee. Those definitions changed between
    award f& Periods Six and Seven. Those definitions are as follzws:

          l The Contractor’s performance clearly meets acceptable levels.
    Appropriate corrective actions where necessary were implemented in a timely
    manner. Receive 100 percent of the available award fee. Changed to
    96 - 100 percent for Period Seven.

          l  The Contractor’s performance meets acceptable levels. Certain levels
    should be improved, but all are minor. Appropriate corrective actions are in
    place. Receive 90 percent of the available award fee. Changed to
    91 - 95 percent for Period Seven.




                                       10
                                      Finding B. Contract Performance Award Fee


           l   The Contractor’s performance meets acceptable levels in some areas.
     Appropriate corrective actions are in place for areas requiring improvement.
     Although there are areas that can be improved, most are minor and are offset by
     excellent or outstanding performance in other areas. Receive 80 percent of the
     available award fee. Changed to 86 - 91 percent for award fee Period Seven.

     Each task is given a score in accordance with the above definitions. For each of
     the three evaluation areas, the arithmetic mean of the scores is determined and is
     then multiplied by the weight given to the evaluation area. The three results are
     totaled for the percentage of the available award fee that is due to the
     Contractor.


Award Fee Period Six Decision

     The Comanche Program Office evaluated the Contractor’s performance for
     award fee Period Six during February 1997. As a result of that evaluation, the
     Comanche Program Office awarded the Contractor 98.2 percent of the available
     award fee of $37,921,159 or $37,238,578. The Comanche Program Office
     rolled over the unawarded amount of $682,581 to Period Seven. Comanche
     Program Office officials stated that the Contractor had generally done an
     outstanding job in performing the necessary effort to maintain the Comanche
     development program on track. Representatives of the Comanche Program
     Office stated that examination of performance in the areas of emphasis revealed
     that the majority of the tasks evaluated in the technical, supportability, and cost
     and program management areas were 100 percent complete. The Period Six
     final award fee notice stated that it assessed slight reductions in fees for several
     incomplete technical areas, plus a small overall reduction for failure to complete
     effort scheduled and budgeted.


Audit Evaluation of Award Fee Period Six Decision

    The Comanche Program Office did not have adequate documentation to show
    that the scores given to the individual tasks in the evaluation criteria were in
    accordance with the scoring instructions stated in the contract. The three areas
    of emphasis, which are technical, supportability, and cost and program
    management, had 47 major tasks. Review of the available documentation
    indicated that the Contractor did not fully meet the criteria for at least 13 tasks.
    Further, documentation to determine whether the tasks were not completed
    because of changes in the priorities of the Comanche Program was not always
    available. Additionally, Comanche Program Office personnel did not always
    document when they moved tasks originally required in award fee Period Six to
    a future period and percentages of the uncompleted tasks that the Contractor had
    completed. As a result, documentation to support the outstanding rating and
    award fee given to the Contractor for award fee Period Six was unavailable.

            Technical Area of Emphasis. The Contractor rescheduled or did not
    fully complete 8 of 25 tasks, which was 32 percent of the technical area. Little
    or no documentation was available to determine whether the Contractor had
                                              11
Finding B. Contract Performance Award Fee


      completed any portion of those eight tasks or whether the priorities of the
      Comanche Program had changed. As a result, there was no objective basis to
      determine whether the g&percent award fee for the technical area was
      appropriate.

             Supportability Area of Emphasis. The Contractor did not fully
      complete 3 of 12 tasks, which was 25 percent of the supportability area. Little
      or no documentation was available to determine whether the Contractor had
      completed any portion of those three tasks or whether the priorities of the
      Comanche Program had changed. As a result, there was no objective basis to
      determine whether the loOpercent award fee for the supportability area was
      appropriate.

              Cost and Program Management Area of Emphasis. The Contractor
      did not fully complete 2 of 10 tasks, which was 20 percent of the cost and
      program management area. Little or no documentation was available to
      determine whether the Contractor had completed any portion of those two tasks
      or whether the priorities of the Comanche Program had changed. As a result,
      there was no objective basis to determine whether the 97percent award fee for
      the cost and program management area was appropriate.

      Comanche Program Office representatives viewed the award fee process as an
      incentive for the Contractor to aggressively address key issues. In the course of
      the award fee period, changing budgetary constraints or evolving technical
      issues often mandate a change in program priorities. The Comanche Program
      Office uses the award fee process to achieve the mid-course program corrections
      that are needed. Comanche Program representatives acknowledged that, as a
      result of using the award fee process as a part of the routine management
      process, actions and decisions were not always sufficiently documented.


Award Fee Period Seven Decision
      The Comanche Program Office evaluated the Contractor’s performance for
      award fee Period Seven during January and February 1998. As a result of that
      evaluation, the Comanche Program Office awarded the Contractor 98 percent of
      the available award fee of $11,563,335 or $11,332,068. The Comanche
      Program Office rolled over the unawarded amount of $23 1,267 to Period Eight.
      The Comanche Program Office awarded scores for the areas of technical,
      supportability, and cost and program management of 97, 100, and 97 percent,
      respectively.


Audit Evaluation of Award Fee Period Seven Decision
      Generally, the same conditions existed in award fee Periods Six and Seven. In
      some cases, Comanche Program Office officials appeared to exert less effort to
      document award fee decisions. This was especially true in relating the scores
      awarded to the scoring instructions stated in the contract. For example, the
      technical area of emphasis required a scale model and test plan for wind tunnel

                                          12
                                    Finding B. Contract Performance Award Fee


    tests to be completed. Even though the Contractor did not complete the model,
    the Contractor received a score of 95 percent for this task. With the available
    documentation, we could not relate the score of 95 percent to the scoring
    instructions.


summary

    Comanche Program Office personnel did not fully document their decisions
    when they evaluated the Contractor’s performance to determine the award fee
    amount. The available documentation did not relate the scores given to the
    scoring instructions as stated in the contract. Also, changes in program
    priorities that would affect the evaluation were not always adequately
    documented. As a result, documentation was not available to support the award
    fees.


Management     Action

    The Comanche Program Office representatives acknowledged that the award fee
    process needed to be better documented, and they agreed to implement
    improved procedures that will require the documentation to clearly relate the
    evaluation criteria to the Contractor’s actual accomplishments and scoring
    instructions, as stated in the contract. These planned actions will correct the
    problems identified. The Comanche Program Office did not develop time-
    phased milestones to implement the action plan.


Recommendation        and Management            Comments

    B. We recommend that the Program Manager for the Comanche Program
    provide the implementation date for his plan of action to fully document
    the process for evaluating the Contractor’s performance and award fee
    determination.

    Management Comments. The Program Manager for the Comanche Program
    concurred and stated that the detailed documentation of the award fee process
    will be reflected in the July 1998 quarterly award fee determination. The full
    text of the Program Manager’s comments is in Part III.




                                           13
            Finding C. Life-Cycle Cost
            The Comanche Program Office underestimated the life-cycle cost for the
            Comanche helicopter. The life-cycle-cost estimate did not include the
            cost of acquiring, handling, using, and disposing of hazardous materials
            or the disposal cost for the Comanche helicopters at the end of their
            useful lives. As a result, the life-cycle-cost analysis for the Comanche
            helicopter weapon system did not provide management with accurate
            information to determine whether the Comanche was affordable in the
            context of long-range investment plans.


Life-Cycle-Cost     Requirements

     DOD Regulation 5000.2-R, “Mandatory Procedures for Major Defense
     Acquisition Programs (MDAPs) and Major Automated Information System
     (MAIS) Acquisition Programs, n (the Regulation) March 15, 1996, requires that,
     by program initiation, each Acquisition Category I program manager shall have
     established life-cycle cost objectives through consideration of projected out-year
     resources, recent unit costs, parametric estimates, and technology trends. Upon
     approval of a mission need statement, an approach shall be formulated and set
     to refine cost. The Regulation also requires that life-cycle-cost estimates shall
     be comprehensive in character and identify all elements of cost that would be
     entailed by proceeding with development, production, and operation of the
     system regardless of funding source or management control. The Regulation
     requires that, at each subsequent milestone review, cost objectives and progress
     toward achieving them shall be reassessed. In addition, the Regulation states
     that the life-cycle-cost estimate of a program is used by milestone decision
     authority to determine the acquisition program baseline cost estimate and the
     affordability of the program. Department of Army Pamphlet 70-3, “Army
     Acquisition Procedures, * February 28, 1995, requires the program office to
     identify the handling, treating, and disposing of hazardous waste, personal
     protective gear and practices, and legal protection costs to the program over the
     life cycle at Milestone 0, “Approval to Conduct Concept Studies. n

Life-Cycle-Cost     Estimate of the Comanche Helicopter

     The Comanche Program Office underestimated the life-cycle cost for the
     Comanche helicopter. The Comanche Program Office reported a total estimated
     program cost of $101.3 billion in the 1996 Comanche Life-Cycle-Cost Estimate;
     however, the estimate did not include the life-cycle cost of environmental issues
     for hazardous materials and for disposing of Comanche helicopters at the end of
     their useful lives as required by the Regulation. On the basis of life-cycle-cost
     estimates for other Army weapon systems, the cost could range from 18 percent
     to more than 30 percent of the total program cost, or $18 billion to more than
     $30 billion over the life of the Comanche helicopter.



                                         14
                                                         Finding C. Life-Cycle Cost


Preparing Life-Cycle-Cost Estimates

     In preparing the life-cycle-cost estimate, the Comanche Program Office did not
     include the cost of acquiring, handling, using, and disposing of hazardous
     materials because:

          l  officials of the Comanche Program Office believed that the Comanche
     helicopter production design would reduce or eliminate many of the hazardous
     materials currently being used in the design, and

          l the Army did not provide a model for preparing life-cycle cost for
     environmental issues associated with hazardous material.

              Production Design. The Comanche Program Office said that it can
     provide a more realistic life-cycle-cost estimate by waiting for a final design to
     compute the life-cycle cost for hazardous materials. However, DOD Directive
     No. 42 10.15, “Hazardous Material Pollution Prevention, ” July 27, 1989,
     requires that economic analyses of hazardous materials begin at the earliest
     possible stage of the life cycle and that the analyses are modified as better
     information becomes available. Department of Army Pamphlet 70-3, “Army
     Acquisition Procedures, n February 28, 1995, requires the program office to
     identify the costs to the program over the life-cycle (handling, treating, and
     disposing of hazardous waste, personal protective gear and practices, and legal
     protection) in Phase 0, “Concept Exploration. ” Army Pamphlet 70-3 also
     requires the Comanche Program Office to identify resource requirements for
     life-cycle-cost analysis, and to prepare or update other environmental analyses at
     Milestone 1, “Approval to Begin a New Acquisition Program. n

             Army Model. The Amy is currently developing procedures and a
     model for computing life-cycle-cost estimates for hazardous materials. Because
     the Comanche Program Off& did not have an Army model to compute the life-
     cycle-cost estimate for hazardous materials, it attempted to use an Air Force
     model. Those estimated costs were extremely high. Comanche Program Office
     personnel stated that because they could not validate the accuracy of the
     Air Force model, they did not include the life-cycle-cost estimate for hazardous
     materials in the life-cycle-cost estimate for the Comanche helicopter.

     The Comanche Program Office also did not include the life-cycle cost for
     disposing of the Comanche helicopter at the end of its useful life in the 1996
     Comanche Life-Cycle-Cost Estimate. The Comanche Program Office needs to
     determine the timeframe that the Comanche helicopter will be in service and
     whether there will be extraordinary costs associated with disposing of the
     Comanche helicopter at the end of its useful life. The Comanche Program
     Offke should include the hazardous material costs and disposal costs to provide
     decisionmakers with a more accurate estimate of the Comanche Program costs.




                                             15
Finding C. Life-Cycle Cost


Life-Cycle Cost of Hazardous Materials for Other Army
Weapon Systems

      The Army System Readiness Center has calculated life-cycle-cost estimates
      including those for environmental issues for many Army weapon systems, such
      as the Crusader and Sense and Destroy Armor. Because the Army has not
      developed a life-cycle-cost model for hazardous material, they use the model
      developed by the Air Force. The cost relative to environmental issues usually
      ranges from between 18 percent to more than.30 percent of the total program
      cost. The normal costs of acquiring, handling, using, and disposing of
      hazardous materials also include costs for environmental issues such as the
      following:

          l  training for using, handling, transporting, storing, and maintaining
      hazardous materials;
           l   handling necessary for hazardous materials;
           l   effects on insurance premiums; and
           0   potential contamination of surrounding areas and depot maintenance
      areas.


Life-Cycle-Cost       Estimates for Making Management                    Decisions

      The life-cycle-cost estimate for the Comanche helicopter weapon system did not
      provide management with accurate information to determine whether the
      Comanche is affordable in the context of long-range investment plans. The
      Comanche Program Office needs to compute the cost for acquiring, handling,
      using, and disposing of hazardous materials and the disposal cost of the
      Comanche helicopter for inclusion in the Comanche life-cycle cost estimate.
      Department of Army Pamphlet 70-3, “Army Acquisition Procedures, ”
      February 28, 1995, states that Task 303, “Evaluation of Alternatives and Trade-
      off Analysis,” requires the Program Office to provide specific guidance and
      procedures for bringing the results of the hazard risk assessments and approvals
      together with life-cycle-cost estimates. The cost estimates are to be included in
      the decision process. A complete life-cycle-cost analysis will provide a more
      realistic estimate of the program costs and provide management with better
      information to determine whether the program is affordable for DOD. It will
      also provide information to better forecast the budget fund needs of the DOD.




                                              16
                                                      Finding C. Life-Cycle Cost



Management Action

    Comanche Program Office officials agreed to incorporate the disposal cost of
    hazardous material and disposal cost of the Comanche helicopter into the
    Comanche life-cycle-cost estimate before the next milestone review. The
    Comanche Program Office planned actions will correct the problems identified.
    Therefore, this issue is resolved and this finding does not include a
    recommendation.


Management Comments

    The Program Manager for the Comanche Program stated that the total life-
    cycle-cost estimate from cradle to grave, for environmental areas, will be
    completed over the next several months. He provided a target date for the end
    of 1998 for completion of all actions. The full text of the Program Manager’s
    comments is in Part III.




                                          17
Part II - Additional Information
Appendix A. Audit Process


Scope

       Work performed. We evaluated the financial management of the Comanche
       Program. Our evaluation included a review of the Contractor’s EVMS to
       determine whether it was being operated in accordance with
       DOD Regulation 5000.2-R. We reviewed 54 work packages covering
       27,608 hours of work during the period of January 1997 through
       September 1997. We also evaluated the Comanche Program Office award fee
       process for Award Fee Period Seven and Award Fee Period Six, to determine
       whether it was reasonable and was in compliance with the contract for the
       Comanche Program. Award Fee Period Seven encompassed the time from
       January 1, 1997 through December 3 1, 1997, with an available $11.6 million
       award fee pool. Award Fee Period Six encompassed the time from
       October 1, 1997 through December 31, 1996, with an available $37.9 million
       award fee pool. In addition, we evaluated the Comanche Program Office’s
       December 15, 1997 life-cycle costs estimate of $101.3 million to determine
       whether all applicable costs were included.

Dod-wide Corporate Level Government Performance and Results Act Goals. In
response to the Government Performance Result Act, the Department of Defense has
established 6 DOD-wide corporate-level performance objectives and 14 goals for
meeting these objectives. This report pertains to achievement of the following
objective and goal.

       Objective: Fundamentally reengineer DOD and achieve a 21st century
       infrastructure. Goal: Reduce costs while maintaining required military
       capabilities across all DOD mission areas. (DOD-~)

DOD Functional Area Reform Goals. Most major functional areas have also
established performance improvement reform objectives and goals. This report pertains
to achievement of the following functional area objectives and goals.

       Acauisition Functional Area.

       Objective: Deliver great service. Goal: Deliver new major defense systems
       to the users in 25 percent less time. (ACQ-1.1)

       Objective: Internal reinvention. Goal: Minimize cost growth in major
       defense acquisition programs to no greater than 1 percent annually. (ACQ-3.4)

General Accounting Office High Risk Area. The General Accounting Office has
identified several high risk areas in the Department of Defense. This report provides
coverage of the Defense Weapons Systems Acquisition high-risk area.



                                           20
                                                          Appendix A. Audit Process


Methodology

    Use of Computer-Processed Data. We used data from the CPRs that were
    generated by the Contractor’s computer systems. We also used life-cycle-cost
    data generated by the Comanche Program Office computer systems. Any
    inaccuracy in these data could result in inaccuracies in this report.

    Audit Period and Standards. We performed this economy and efficiency
    audit from December 1996 through March 1998, in accordance with auditing
    standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DOD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD and the Contractor for the Comanche helicopter.
    Further details are available upon request.


Management Control Program Review

    DOD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of Management Control Program. In accordance with
    DOD Regulation 5000.1 “Defense Acquisition,” March 15, 1996, and
    DOD Regulation 5000.2-R, “Mandatory Procedures for Major Defense
    Acquisition Programs (MDAPs) and Major Automated Information System
    (MAIS) Acquisition Programs, n March 15, 1996, acquisition managers are to
    use program cost, schedule, and performance parameters as control objectives to
    implement the requirements of DOD Directive 5010.38. Accordingly, we
    limited our review to management controls directly related to financial
    management systems.

    Adequacy of Management Controls. The Comanche Program Office had
    management controls to ensure the proper operation of the Contractor’s earned
    value management system, documentation of the award fee process, and
    preparation of the life-cycle cost estimate. There was material weaknesses in
    management controls because the Comanche Program Office did not follow the
    controls as stated in Army Regulation 70-1, a Systems Acquisition. ” If
    management implements all report recommendations, the Comanche Program
    Office will be assured of having an acceptable process for the operation of the
    Contractor’s earned value management system, documentation of the award fee
    process, and computation of the life-cycle-cost estimate.

    Adequacy of the Comanche Program Office Self-Evaluation. The
    Comanche Program Office identified the earned value management system,
    award fee process, and calculation of the life-cycle cost as part of its assessable
    unit, and, in our opinion, correctly identified the risk associated with the areas.
                                         21
Appendix A. Audit Process


      However, in its evaluation, Comanche Program Office officials did not identify
      the specific material management control weakness identified by the audit.
      Consequently, we believe that the self-evaluation was inadequate.


Summary of Prior Coverage

      During the last 5 years, two audits involved the Comanche Program.

      General Accounting Office (GAOiNSIAD) Audit No. 95-112 (OSD Case
      No. 9877), “Comanche Helicopter - Testing Needs to be Completed Prior to
      Product Decisions,” May 1995.

      Inspector General, DOD, Report No. 98-125, “Protection of the Comanche
      Helicopter Against Radio Frequency Weapons,” April 28, 1998.




                                        22
Appendix B. Earned Value Management System

   Earned value is a management technique that relates resource planning to
   schedules and to performance. All work is planned, budgeted, and scheduled in
   time-phased increments constituting a performance measurement baseline. In
   the EVMS, the sum of all budgets for the work scheduled to be accomplished is
   called the Budgeted Cost of Work Scheduled (BCWS). As work is performed,
   it is earned on the same basis it was planned, in dollars or other quantifiable
   units such as labor hours. In the EVMS, the sum of budgets for completed
   work is called Budgeted Cost for Work Performed (BCWP), also known as
   earned value. Planned value, BCWS, compared with earned value, BCWP,
   thus measures the dollar volume of work planned versus the equivalent dollar
   volume of work accomplished. Any difference is called a schedule or
   accomplishment variance. Earned value compared with the actual cost incurred
   for the work performed, called Actual Cost of Work Performed (ACWP) in the
   EVMS, provides an objective measure of cost performance. Any difference is
   called a cost variance.

   The BCWS is further divided into cost accounts that relate to the Work
   Breakdown Structure (WBS). The WBS is a product-oriented family tree
   division of hardware, software and services that organize and define the product
   and is the basis for correlating schedule, budget, cost, and performance
   measurement. Cost accounts are made up of planning packages and work
   packages. A planning package is a logical aggregation of work within a cost
   account, normally the far-term effort, that can be identified and budgeted in
   early baseline planning, but is not yet defined into detailed work packages. A
   work package is a detailed, short timespan job or material item identifying work
   required to complete a contact. It is a discrete unit of work having clear
   identification from all other work. The work package is within a single cost
   account and organizational identity, budgeted in measurable units, with
   scheduled start and completion dates, and a definable end result.

   There are various types of work packages. The most desirable type is called a
   discrete work package, which contains specific measurable tasks that usually
   result in a physical end product. Examples include an engineering work
   package that results in a drawing release, or a material work package that shows
   the delivery of a part or parts. The start and end of these tasks are relatively
   easy to define. The least desirable type of work package is a level-of-effort
   work package. Level-of-effort activity is more general or supportive in nature.
   It is neither discretely measurable in terms of end products nor is it directly
   related to the accomplishment of a primary discrete work effort. Level-of-effort
   activities contain no reporting milestones other than the passage of time.

   When a discrete work package is established, the tasks to be accomplished
   within the work package are defined. A schedule is established for the start and
   completion of the work package tasks and a budget is established for the cost of
   the work scheduled (the BCWS). When the work package tasks are completed,
   earned value is taken. For example, if the BCWS was $1000, when the work
   package tasks were completed, $1000 of BCWP would have been earned.


                                      23
Appendix B. Earned Value Management System


     The sum of the budgets for the scheduled work packages is the BCWS and
     represents where the contractor planned to be by a certain date. The sum of the
     budgets for the work actually completed is called the budgeted cost of work
     performed (BCWP). A comparison of the BCWS to the BCWP indicates
     whether more or less work was performed than was planned and reveals, in
     terms of dollar differences, whether work is ahead of or behind schedule.

     Therefore, an EVMS that has been properly implemented and operated would
     preclude management from suddenly realizing that 90 percent of the budgeted
     funds are spent but that the project is only 10 percent complete. The CPR,
     which shows the cost and schedule status of a contract, is prepared from data
     contained in the EVMS.




                                        24
Appendix C. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Environmental Security)
  Director, Defense Logistics Studies Information Exchange
   Director, Strategic and Tactical Systems
Under Secretary of Defense (Comptroller)
  Director, Program Analysis and Evaluation
Assistant Secretary of Defense (Public Affairs)


Department of the Army
Assistant Secretary of the Army (Research, Development, and Acquisition)
Commander, U.S. Army Aviation and Missile Command
Program Executive Officer for Aviation
  Program Manager for the Comanche Program
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
   Commander, Defense Contract Management Command
      Defense Contract Management Command, Boeing Helicopters
      Defense Contract Management Command, Sikorsky Aircraft
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                         25
Appendix C. Report Distribution


Non-Defense Federal Organizations and Individuals

Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management Information and Technology,
    Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                         26
Part III - Management Comments
Department of the Army Comments




                                                                                   21 3u.l98
                  .      .


      MEMORANDUM         THRU U.S. ARMY AUDIT AGENCY, ATTNz S G-PM@L,
                                3101 PARKCENTERDRJVE,ALEXANDRlA,
                                                                           A/     rg   97yrp




                                VIRGJNIA22302-15%

      FOR INSPECTOR GENEh&DEPARTMENTOFDEFENSE,4OOARMYNAVY
            DRIVE. ARLlNGTON, VIRGINIA, 222022884

      SUBJECT: Audit RcportonFial~t               oftileRAHd6 comsllchc
               Helicoptm Program (Rojcct No. 7ALXtOl2.01)


      1. References:

             a U.S. Amy Audit Agency Mano-               1 June 1998. SAB.

             b. Dejmtmcnt of D&me hqnxtor General Mcmonmd~               26 May 1598, SAB.

      2. Thismcmomdmrespaadstoyournquest6Dr      cxmwlltsonthcdraftrcport.             The
      cncloscdnsponsewasprepandbythePmgnml~,,~andhasbeen
      coodnated with the Audit Project Manager.

      3. Point of contact for this action is Mm. Alice Hartman. (703) 604-7054.




                                                 hhitC.PRANKLIN
                                                  Major Gamal, GS
                                                  DeputyfbrSystansManogement~
                                                    HorimntalTcchnology Integration

      Ed




                                               28
                                        Department     of the Army Comments




                      DEPARTMEWOF THEARbW
                  OfnmaFm-umnm       OcclcLR
                                          AwAllm
                       IILDITowMaEmLIL-
       RPLYlO
       A-o?
                                                       16 3Ul 1998
SFAE-AV-P


MEMDRANDUM FOR InspectorGeneral, Departmentof Defense, 400 Amy Navy
                 Drive (Row, Boll, Arlington,Virginia 22202-2864

sDBJ?XX: Audit Report on FinancialManagementof the RAH-66 Comanche
Helicopter Program (ProjectNo. IAL-0012.01)


1. Referencemtmrandm, InspectorGeneral, Departmentof Defense,
26 May 98, subject as above.

2. Enclosed is the responsefrom the Program Manager, Comanche
Program Office.

3. Point of Contact  in Program Executive Office, Aviation, is Carole
Lang, DSN 897-4028,Comercial (256) 313-4028and point of contact in
the Comanche Program Office is Sally Ramey, DSN 897-4321,Comercial
(256) 313-4321.




Encl                            PADLBOGOSIAN
                                Deputy Program Executive,Aviation




                              29
Demrtment of the Army Comments




                                  DEPARTMENT OF THE ARMY
                                     mo@nmY-.-
                                mua. w,, RasW MSENU 1L3aowolo



          SFAE-AV-IUH


          MEM0RANDmlPoR        hpectorGweral,DcputmentofDefcw
                                 400ArmyN8vyDfive(Room801)
                                 Arlington,MrSinir222024884

          SUBIECT: Audit Rqxin on FinancialMawement ofthRAH46COtMttChC
                     Huhcopter
                            Pmgmm
                                (Project
                                       No.7AL-Wl2.01)


          1.   R&renceyowmcmomndum,26May%,subjactuabove.

          2. Rapoascto DoDIG DraftAudit Report Reconrmenluioas arc as follows:

          fladinr A: Eand Value ManagementSystem

          Gatual comlnents-

          TheCQst-Reporis(cFBs)fortha             thllaMkhgfamarenot~ativa
          indicatorsof costandsdmdultpcflbwm. Thiscxmdition    dta3 from adjustments
          madeto the EarnedValue Man8gcment Systan @MS) 8t the varioluthlathe
          -Progmnwas            rcstNuure&&omcombining?hecmtractpl?hmwedatahr
          thapeliodprktothehnuafyw97rcshhre        withthtaulttau~&fatha
          periodaftwtbcJamlary1997restnrchtn, andftomtha ContncMs questionablepractice
          in oparatingthe EVMS. The&we, thaCPRsdaprivaDoD manager8ofinformative
          infommthnfkmakingdccisionsputainingtotheCormnchePrognm




          TargetDate- Impleamntationofthe rkammendcd Mbbteun.
                                                     Department of the Army Comments




TluC!onmnbProgrsmOfiicc~implanuttaltiptDoDIG’srarrmzarspdstionfor
detaikddoammmbnofawafdfbelaituia~           Docmm&onprocedun
                          stra@m& suf6ckntdetailwillbcincl~infuturr
zzhubeen    . has to fully doalment decki-.




This &ailed   documtnti~         will be reflected in the next qmtcrly awardfee adjustment
(Juty98).

FlidiD#   c: Lifkcycle     cad




ThcAMCOMCotmndAnalysisDinctorptewUprovidcpulyticplsuppob(tothc
Cummcbel@mnOfficctopcrlbrm~hofotbusclrvica’                        expaimceanddata




                                         31
Department   of the Army Comments




              SFAE-AV-RAH
              SUBECT’z Audit Reporton Financiallduqemd    oftheRAH-66cu~
              Halicopta Pmgmn (hject No.7AL-001201)




              Tugct Date-



              Maa8~cnt      Ceatrokz lb CJonm&e hogramMaaa8cr’sOf6cehastakaIeffortsto

                                   muragmcntcontrok.ThcProgmm~sofIictis




              3. Point ofeormct
                              for FiadirrgJA and C is Mr.Guy Luker,DSN 8974078 or (256)
              3~3-$W8;POCforF~BkMr.RiclrRamey,DSEJ8974315or(256)31343ls;
              =    h bhwment     Comok k Ms. Sally Rmney.DSN 8974321 or (2!i6) 3134321.




                                                   3




                                              32
Audit Team Members

The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing, DOD, produced this report.

Thomas F. Gimble
Patricia A. Bramk
Charles M. Santoni
William D. Van Hoose
Averel A. Gregg
James A. Hoyt
Dewy W. Welbom
Ursula Cleary
Patricia A. Joyner
Wendy Stevenson
Sonya M. Mercurius
Krista S. Gordon
